Appendix
United States Court of Appeals
Fourth Circuit Filings:

for the

Per Curiam Judgment,
filed September 29, 2020

A1 - A2

Per Curiam Decision,
filed July 29, 2020

B1 - B3

United States District Court
District of Maryland Filings:

for the

Decision, filed June 27, 2019

Cl - C3

Decision, filed March, 2015 .

D1 - D30

♦

FILED: September 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1770
(8:18-cv-00977-TDC)
CLAUD ANDERSON
Defendant-Appellant
v.
HARBOR BANK OF MARYLAND
Plaintiff-Appellee
and
MARYLAND AGRICULTURE &
RESOURCE-BASE INDUSTRY
DEVELOPMENT CORPORATION;
STATE OF MARYLAND, DEPARTMENT OF
COMMERCE
Plaintiffs
ROGER SCHLOSSBERG
Trustee

A-l

ORDER

The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under Fed. R.
App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wynn,
Judge Thacker, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

A-2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1770
CLAUD ANDERSON
Defendant-Appellant
v.
HARBOR BANK OF MARYLAND
Plaintiff-Appellee
and
MARYLAND AGRICULTURE &
RESOURCE-BASE INDUSTRY
DEVELOPMENT CORPORATION;
STATE OF MARYLAND, DEPARTMENT OF
COMMERCE
Plaintiffs
ROGER SCHLOSSBERG
Trustee

B-l

Appeal from the United States District Court for the
District of Maryland, at Greenbelt. Theodore D.
Chuang, District Judge. (8:18-cv-00977-TDC)

Submitted: July 29, 2020

Decided: August 26, 2020

Before WYNN, THACKER, and RICHARDSON, Circuit
Judges.

Affirmed by unpublished per curiam opinion.

Percy Squire, Columbus, Ohio, for Appellant. Shannon J.
Posner, LAW OFFICES OF SHANNON J. POSNER, P.A.,
Hunt Valley, Maryland, for Appellee.

Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Claud Anderson appeals the district court’s orders: (1)
affirming the bankruptcy court’s order determining his debt
to be nondischargeable under 11 U.S.C. § 523(a)(6) (2018);

B-2

and (2) denying his motion to alter or amend the judgment,
Fed. R. Civ. P. 59. We have reviewed the record and find no
reversible error. Accordingly, we affirm for the reasons stated
by the district court. Harbor Bank of Md. v. Anderson, No.
8:18-cv-00977- TDC (D. Md. June 27,2019; Mar. 15,2019).
We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before
this court and argument would not aid the decisional process.
AFFIRMED

B-3

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND

IN RE:
CLAUD ANDERSON

CLAUD ANDERSON,
Appellant,
v

Civil Action No. TDC-18-0977

THE HARBOR BANK OF MARYLAND,
Appellee.

ORDER
Appellant Claud Anderson has filed a Motion
to Alter or Amend Judgment pursuant to Federal
Rule of Civil Procedure 59(e) in which he asks this
Court to alter its March 15, 2019 Memorandum
Opinion and Order affirming the March 23, 2018
Order of the United States Bankruptcy Court for the
District of Maryland in Harbor Bank of Maryland v.
Anderson, No. 15- 00685 entering judgment in favor
of Plaintiff The Harbor Bank of Maryland ("Harbor
Bank") on its claim that Anderson's debt to Harbor
Bank was not dischargeable in bankruptcy pursuant
to 11U.S.C. S 523(a)(6).
A Rule 59(e) motion may be granted only (1) to
accommodate an intervening change in controlling
C-l

law; (2) to account for new evidence not available at
trial; or (3) to correct a clear error of law or prevent
manifest injustice. Mayfield v. Nat 'IAss 'nfor Stock
Car Auto Racing, Inc., 674 F.3d 369, 378 (4th Cir.
2012). "A prior decision does not qualify forth(e] third
exception by being just maybe or probably wrong; it
must strike us as wrong with the force of a five-weekold, unrefrigerated dead fish. It must be dead wrong."
us. Tobacco Coop. Inc. v. BigS. Wholesale of Virginia,
LLC, 899 F.3d 236, 258 (4th Cir. 2018) (interpreting
the clear error oflaw or manifest injustice standard in
the context of Rule 54(b)) (citations omitted).
Anderson cites no intervening change in
controlling law and points to no new evidence, but
instead asserts that various determinations of this
Court were clear errors oflaw. Specifically, he asserts
that this Court improperly (1) ignored that
Waterland Fisheries, Inc.'s ("Waterland") creditors
were put on notice by Joann Anderson's filing of a
Uniform Commercial Code ("U CC")-1 statement; (2)
found that Joann Anderson did not have control of
the Waterland deposit account within the meaning
ofUCC S 9-104; (3) applied In re WEB2B Payment
Solutions, Inc., 488 RR. 387 (8th Cir. RA.P. 2013); (4)
held that Harbor Bank's claims were not barred by
res judicata; and (5) found that Anderson determined
the account into which the proceeds from See
Waterland Fisheries, Inc. v. Selective Ins. Co. of Am.,
No. 14-cv-0585-RDB (D. Md. 2014) would be
deposited.
The cases on which Anderson relies for his
arguments in his Motion to Alter or Amend are

C-2

largely the same as those he relied on in his
Appellant Brief. The only new authorities he cites are
cases and secondary sources that have no binding
authority on this Court. Further, the new sources
Anderson identifies either are irrelevant or lend
further support to this Court's prior conclusions.
Anderson provides no support whatsoever for his
contention that this Court's Memorandum Opinion
and Order were clearly erroneous.
Accordingly, it is hereby ORDERED that
Anderson's Motion to Alter or Amend, ECF No. 26, is
DENIED.
Date: June 27,2019
s/Theodore D. Chuang
Theodore D. Chuang
United States District Judge

C-3

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
IN RE:
CLAUD ANDERSON
CLAUD ANDERSON,
Appellant,
v

Civil Action No. TDC-18-0977

THE HARBOR BANK OF MARYLAND,
Appellee.
MEMORANDUM OPINION
Appellant Claud Anderson has appealed an
Order of the United States Bankruptcy Court for the
District of Maryland ("the bankruptcy court") finding
his debt to Appellee The Harbor Bank of Maryland
("Harbor Bank") nondischargeable in bankruptcy
pursuant to 11 U.S.C. § 523(a)(6). The Appeal is fully
briefed and ripe for disposition. No hearing is
necessary to resolve the issues. See D. Md. Local R.
105.6. For the reasons set forth below, the
bankruptcy court's dischargeability determination is
AFFIRMED.

D-l

BACKGROUND
I.

The 2008 Agreements

In 2006,
Waterland Fisheries,
Inc.
("Waterland"), a commercial fish farm, was
incorporated in Michigan. Waterland was dissolved
in 2016. At all times during that 10-year period,
Claud Anderson ("Anderson") was Waterland's
President and Chairman of the Board of Directors. In
April 2007, Waterland purchased property located at
299 Nealson Street in Hurlock,Maryland ("the
Property"). In June 2008, Harbor Bank extended a
$750,000 commercial construction loan to Waterland.
As security for that transaction, Waterland granted
Harbor Bank a lien on the Property, memorialized in
a Deed of Trust ("Harbor Bank Deed"), the scope of
which included the land and the improvements to
land. The Harbor Bank Deed required the
maintenance of an insurance policy on the Property
and provided that any insurance proceeds must be
paid directly to Harbor Bank. The Harbor Bank Deed
was recorded in the relevant county land records in
July 2008.
As part of the 2008 loan, Waterland also
entered into a Security Agreement with Harbor Bank
(the "Harbor Bank Security Agreement") in which it
gave Harbor Bank a secured interest in certain
business property ("the Collateral"), including
Waterland's deposit accounts, and in the "Proceeds
and Products," defined as "the proceeds, including
but not limited to insurance proceeds, and all the
products of the Collateral. The Harbor Bank Security
D-2

Agreement also required that Harbor Bank's security
interest take priority over any other security interest,
with the exception of any prior security interest held
by Harbor Bank through another loan. Also as part
of the loan transaction, Claud Anderson executed a
Guaranty Agreement in which he personally
guaranteed the Harbor Bank loan through a lien on
his personal property.
Harbor Bank's secured interest in the business
property was memorialized in a Uniform Commercial
Code ("UCC") Financing Statement ("Harbor Bank
Financing Statement"), which was recorded in the
county land records in July 2008. In January 2009, a
copy of the Financing Statement bearing the land
records recordation stamp was filed with the
Michigan Secretary of State.
Because the Property was encumbered by
additional loans beyond the Harbor Bank loan, a
Subordination and Intercreditor Agreement
("Intercreditor Agreement") was also recorded at the
same time that the Harbor Bank Deed was recorded.
The Intercreditor Agreement subordinated other nonHarbor Bank outstanding loans on the Property to
Harbor Bank's interest. The Intercreditor Agreement
was signed by Claud Anderson on behalf of
Waterland, by Harbor Bank, and by a number
ofWaterland's other secured creditors.
Also in 2008, Waterland obtained a casualty,
commercial liability, and property damage insurance
policy ("the Policy"), policy number S1586046, from
Selective Insurance Company of America ("Selective")
for the Property. In February 2010, a storm caused
damage to the Property. Waterland submitted a
D-3

claim for that damage under the Policy in May 2010,
but the claim was denied. In December 2012, the
Property was again damaged by weather, and
Waterland again submitted a claim under the PolicyClaim 21274371-which was also denied.
II. The Joann Anderson Loan
In January 2013, Joann Anderson, Claud
Anderson's wife, loaned $510,000 to Waterland.
Joann Anderson was Waterland's Secretary and
Treasurer, and she performed voluntary
administrative duties for Waterland, such as paying
Waterland's bills and making deposits into bank
accounts. Pursuant to the loan, Waterland and Joann
Anderson entered into a Security Agreement (the
"Anderson Security Agreement"), executed on
January 16, 2013, that granted Joann Anderson "a
continuing security interest in, and lien upon, all of
Debtor's right, title and interest in, to, and arising
under the Collateral," which was defined as all
ofWaterland's "personal property and fixtures,
tangible and intangible, real, personal and mixed,
whether now in existence or whether acquired or
created at any time hereafter," including Waterland's
"deposit accounts." Anderson Security Agreement
1-2, ECF No. 15-2. On January 30, 2013, Joann
Anderson filed a DCC Financing Statement with the
Michigan Secretary of State which defined the
collateral in which she had a secured interest in the
same terms as the collateral described in the
Anderson Security Agreement.

D-4

At no point did Waterland request Harbor
Bank's consent for, or did Harbor Bank give its
consent to, Joann Anderson's lien against
Waterland's assets, and Harbor Bank did not learn of
Joann Anderson's lien until late Mayor early June
2015. According to Harbor Bank, Joann Anderson's
lien constituted a default on the Harbor Bank loan.
In February 2013, Joann Anderson
corresponded with Stanley Arnold, a commercial loan
officer with Harbor Bank, about consolidating the
several loans Waterland had with Harbor Bank. In a
February 4,2013 email to Arnold with the subject
line, "Waterland Non-Bank Loans," Joann Anderson
listed for Arnold Waterland's outstanding nonHarbor Bank loans subordinated to Harbor Banks
interests, but did not reference her $510,000 loan,
made the previous month. At trial in the bankruptcy
court, Joann Anderson provided no explanation for
why she neglected to include her $510,000 loan in the
list of Waterland's non-bank loans that she emailed
to Arnold, but instead generally asserted that Harbor
Bank was aware of her security interest.
III. The 2013 Agreements
On July 25, 2013, Waterland consolidated its
Harbor Bank loans into a single loan in the amount
of $1,049,365.45. The consolidated promissory note
incorporated all of the 2008 agreements between
Waterland and Harbor Bank. As part of the
consolidation, Waterland signed a Consolidated,
Amended and Restated Deed of Trust, Assignment of
Rents and Leases, and Security Agreement ("the
D-5

Amended Harbor Bank Deed"), which reaffirmed
Harbor Bank's previously recorded security interests
in the Property and consolidated them into a single
lien. The Amended Harbor Bank Deed expressly
provided that the lien extended to "[a]ll payments,
proceeds, settlements of other compensation
heretofore or hereafter made, including any interest
thereon, and the right to receive the same from any
and all insurance policies covering the Land or the
Improvements now or hereafter erected thereon."
Amended Harbor Bank Deed at 6, § (k), Trial Ex. 8.
The Amended Harbor Bank Deed was recorded in the
county land records in August 2013.
Waterland then entered into a Consolidated,
Amended and Restated Security Agreement
("Amended Harbor Bank Security Agreement"),
which continued Harbor Bank's security interest in,
among other things, "all cash and non-cash proceeds"
from any insurance claim made in relation to
Waterland's Collateral. Amended Harbor Bank
Security Agreement ]j 2, Trial Ex. 10. Elsewhere in
the Amended Harbor Bank Security Agreement,
Waterland expressly assigned to Harbor Bank the
proceeds of any such insurance claim and "directs
any insurer to make payments directly to [Harbor
Bank]." Id. f3(G). The Amended Harbor Bank
Security Agreement again defined the scope of the
Collateral in which Harbor Bank had an interest to
include, in relevant part, all of Waterland's deposit
accounts.
As part of the consolidation, Claud Anderson
entered into a Consolidated, Amended and Restated
Guaranty ("Amended Harbor Bank Guaranty") in
D-6

which he unconditionally affirmed his obligations
under all of the previous loan documents, including
those entered into in June 2008.
On July 26,2013, Waterland obtained a
$350,000 loan from the Maryland Small Business
Development Financing Authority ("MSBDFA")
through the Maryland Department of Commerce
("the MSBDFA loan"). Because of Waterland's
financial condition, MSBDFA required Waterland to
execute an Assignment of Insurance Proceeds
("Insurance Assignment") as a necessary condition of
the loan. The Insurance Assignment assigned to
MSBDF A "any and all insurance proceeds ... that
may be payable to the Borrower under insurance
policy number S1586046 ... issued by Selective
Insurance Company ..., and resulting from the prior
loss of or damage to the inventory, building and
equipment" of Waterland located at the Property.
Assignment Ins. Proceeds If B, Appellant Brief Ex. C,
ECF No. 15-3.
MSBDFA was aware of Joann Anderson's loan
to Waterland, as evidenced by a July 26, 2013
Subordination and Intercreditor Agreement
("Anderson Subordination Agreement") in which
Joann Anderson agreed to subordinate all of her
security interests in Waterland's collateral to
MSBDFA. In particular, the Anderson Subordination
Agreement required that "so long as any of
MSBDFA's security interests in Waterland were
entitled to priority over those of Joann Anderson,
Joann Anderson agreed not to take any action "to
foreclose or enforce any liens on or security interests
in" Waterland's assets without MSBDFA's prior
D-7

written consent. Anderson Subordination Agreement
U 4, Appellant Brief Ex. E, ECF No. 15-5. Because of
Waterland's financial circumstances, the Anderson
Subordination Agreement was a condition of the
MSBDF A loan.
Also on July 26, 2013, Waterland executed an
Amended and Restated Subordination and
Intercreditor Agreement ("Amended Intercreditor
Agreement"), which gave Harbor Bank's lien priority
over three other liens, including the MSBDF A lien
pursuant to the MSBDF A loan, as to Waterland's
real property and as to liens on insurance proceeds
under claim 21274371. Specifically, the Amended
Intercreditor Agreement gave unqualified first
priority to Harbor Bank as to all of Waterland's real
property and gave Harbor Bank third priority as to
Waterland's personal property with the notable
exception of "the Insurance Proceeds, with respect to
which its lien and security interest shall have a first
priority." Am. Intercreditor Agreement ^ 4, Trial. Ex.
14. The Amended Intercreditor Agreement makes no
mention of Joann Anderson's loan.
Prior to closing on the July 2013 loan, Arnold
checked to see what UCC financing statements were
on file for Waterland. In that process, he did not
discover Joann Anderson's UCC financing statement.
On August 1,2013, Waterland opened a
business checking account with United Bank ("the
United Bank account"). Claud Anderson and Joann
Anderson were each listed as authorized signatories
on the account. The account agreement did not list
Joann Anderson as a Waterland secured creditor, and

D-8

Joann Anderson did not have a bank account control
agreement for the United Bank account.
IV. The Selective Suit
In February 2014, Waterland filed suit against
Selective ("the Selective Suit") in the United States
District Court for the District of Maryland for the
denied 2010 and 2012 insurance claims. See
Waterland Fisheries, Inc. v. Selective Ins. Co. of Am.,
No. 14-cv-0585*RDB (D. Md. 2014). The parties
agreed to mediate the matter. In May 2014, United
States Magistrate Judge Jillyn K. Schulze issued an
Order scheduling mediation in August 2014. That
Order stated that the "settlement conference process
will be confidential and disclosure of confidential
dispute resolution communications is prohibited."
Order at 2, Waterland, No. 14-cv-0585 (D. Md. May
13,2014) (ECF No. 10). Although scheduled for
mediation with Magistrate Judge Schulze, the parties
ultimately opted to pursue private mediation, which
occurred before a retired Maryland state court judge
on July 18,2014.
In the meantime, prior to the mediation, Claud
Anderson was providing updates to Stanley Arnold at
Harbor Bank approximately every other month in
which he gave assurances that Waterland would use
the proceeds from the Selective Suit to payoff the
Harbor Bank loan. Specifically, in June 2014, Claud
Anderson sent a memorandum to Harbor Bank and
other creditors apprising them that the Selective Suit
was scheduled for mediation, that Waterland was
claiming $3 million in damages, and that he hoped a
D-9

settlement would be large enough to pay back all of
Waterland's secured creditors. The memorandum
made no mention of Joann Anderson's loan. On July
3, 2014, less than two weeks before the mediation,
Claud Anderson emailed two Harbor Bank
representatives, including Arnold, informing them of
the scheduled mediation and stating that "[w]e have
every reason to believe that [Waterland] will receive
sufficient funds from Selective to payoff,our secured
creditors. We are still requesting forbearance from
Harbor through this scheduled mediation." C.
Anderson 7/3/14 Email, Trial Ex. 21. Again, the email
made no mention of Joann Anderson's secured
interest in Waterland.
The July 18,2014 mediation, which both Claud
and Joann Anderson attended, resulted in a
settlement under which Selective agreed to pay
Waterland a total of $800,000 for the 2010 and 2012
claims. The settlement agreement was entered into
by the parties on July 25,2014.
On July 30, 2014, Arnold emailed Claud
Anderson asking him for an update on the Selective
Suit. Claud Anderson did not mention the settlement
and instead responded, "We are currently discussing
the selling of the business to a couple of potential
buyers." In emails dated August 5, 2014 and August
12,2014 to Arnold, Claud Anderson continued to
reference efforts to sell the business. In the August
12 email, he assured Arnold that by the end of the
following week, he would present Harbor with a plan
to pay Waterland's debts. In none of these
communications did Claud Anderson mention the
Selective Suit settlement. In the bankruptcy
D-10

proceedings, Claud Anderson testified that he
believed that he was forbidden by Magistrate Judge
Schulze's May 2014 Order from disclosing to any of
his creditors that a settlement had been reached or
disclosing the terms of that settlement.
V. The Insurance Proceeds
Selective's check for $800,000 was issued on
July 29, 2014 and mailed to Waterland's attorneys in
the Selective Suit, Kramon & Graham, P.A.
("Kramon & Graham"). That same day, Joann
Anderson emailed Kramon & Graham and asked
them to wire the funds to the United Bank account
and to inform her as soon as the money had been
wired. On August 11, 2014, Claud Anderson signed a
Kramon & Graham Settlement Memorandum
("Settlement Memorandum"), which stated that
$332,884.20 had been deducted from the settlement
for attorney's fees and expenses. The Settlement
Memorandum also stated that the remaining
$467,115.80 would be wired to Waterland's United
Bank account, "per client's instructions." Settlement
Mem., ECF No. 15-6. When he signed the Settlement
Memorandum, Claud Anderson was aware that the
funds were being sent to the United Bank account,
not to any of Waterland' s secured creditors. His
concern at that point was "get[ting] the monies into
the Waterland accounts," and Waterland's obligations
to Harbor Bank were "secondary." 3/20/17 Trial Tr. at
86 (Claud Anderson Testimony), ECF No. 4-5. The
wire transfer of $459,615.80 to the United Bank
account was executed on August 15,2014.
D-ll

Having been in attendance at the settlement
conference, Joann Anderson was aware that the
Selective Suit settlement was not going to yield
enough funds to cover all of Waterland's bills, and
she discussed that fact with Claud Anderson. On
August 15,2014, she wrote and signed on behalf of
Waterland a United Bank account check payable to
herself in the amount of $439,000 ("the Anderson
Transfer"). The memo for the check states, "Repay
Secured loan; bal owed $71,000." Anderson Transfer
Check, Trial Ex. 31. At that time, Waterland was not
in default on its payments to her, and she had not
made a demand for payment. According to Joann
Anderson, she believed that as the only secured
creditor with access to and control of the United
Bank account, she had a priority security interest in
the proceeds of the Selective Suit settlement and was
therefore entitled to receive immediate and full
payment of her outstanding loan balance. She also
claimed that her control over the United Bank
account rendered her interest in that account exempt
from the Anderson Subordination Agreement. Joann
Anderson reached these conclusions based on advice
from corporate restructuring consultants hired by
Claud Anderson on behalf of Waterland. She testified
that although she did not consult Claud Anderson
about the Anderson Transfer, she informed him of it
either just before or just after she effected it.
Around August 22, 2014, Claud Anderson met
with Arnold to discuss the Harbor Bank loan. During
that meeting, he again did not inform Arnold of the
Selective Suit settlement. Waterland did not inform
Harbor Bank of the settlement until December 2014
D-12

and even then did not provide any information about
the settlement terms. Harbor Bank learned of the
terms of the settlement only after subpoenaing
records from Selective in January 2015. At no point
during this time was Harbor Bank aware that the
settlement proceeds had been transferred to Joann
Anderson.
In a June 19,2015 letter, Waterland informed
its creditors, including both Harbor Bank and Joann
Anderson, that it was surrendering to its creditors all
of the collateral securing its various loans, on the
condition that the collateral was disposed of in a
commercially reasonable fashion. In detailing the
collateral available for disposition, the letter
reiterated the priority of interests codified in the
Amended Intercreditor Agreement but stated that
only Joann Anderson had a security interest in the
United Bank account, into which the Selective Suit
proceeds had been deposited. In support of this
assertion, the letter appears to offer a quotation from
an uncited authority stating that under various
provisions of the Uniform Commercial Code, a UCC
financing statement does not perfect a security
interest in a deposit account, that such a security
interest can be perfected only by control, and that "a
secured party has control of a deposit account if ...
the secured party is the bank with which the deposit
account is maintained." C. Anderson Letter at 3,
Trial Ex. 26.
Asserting that the United Bank account was
not controlled by any creditor other than Joann
Anderson, and that Joann Anderson had "exercised
her possessory lien as senior secured creditor" as to
D-13

the account, Claud Anderson informed the creditors
that Joann Anderson had "seized all insurance action
proceeds," which amounted to about half of the
$800,000 settlement. Id. at 4. It was through this
letter that Harbor Bank first learned that Joann
Anderson had seized all of the insurance proceeds.
The letter further stated that Joann Anderson
had advanced Waterland $150,000 of those proceeds
to help it sustain its operations. In the bankruptcy
action, neither Claud Anderson nor Joann Anderson
were able to produce bank records substantiating this
$150,000 loan.
VI. The Bankruptcy Proceedings
The following week, on June 22, 2015, Claud
Anderson filed a Chapter 7 bankruptcy petition. In re
Anderson, No. 15-18781 (Bankr. Md. 2015). He listed
Waterland's Harbor Bank loan on his Petition as an
unsecured nonpriority claim in the amount of
$1,050,000. Pet. at 16, In re Anderson, No. 15-18781
(Dkt. No.l).
On January 2, 2016, Harbor Bank filed an
adversary proceeding stemming from Claud
Anderson's bankruptcy petition. Harbor Bank of
Maryland u. Anderson, No. 16-00002 (Bankr. Md.
2016). That proceeding was later consolidated with
an adversary proceeding filed by other Waterland
creditors. See Consolidation Order, State of
Maryland, u. Anderson, No. 15-00685 (Dkt. No. 24).
In January 2017, Harbor Bank amended its
Complaint. The Amended Complaint states four
causes of action, each asserting a different theory
D-14

under which Anderson could not discharge the
Waterland debt to Harbor Bank in bankruptcy. The
first was an objection to discharge pursuant to 11
U.S.C. § 727(a)(2)(A), which provides that a debt
shall not be discharged in bankruptcy if the debtor,
"with intent to hinder, delay, or defraud a creditor ...
has transferred, removed, destroyed, mutilated, or
concealed, or has permitted to be transferred,
removed, destroyed, mutilated, or concealed property
of the debtor, within one year before the date of the
filing of the petition." The second was an objection
pursuant to 11 U.S.C. § 523(a)( 4), which provides
that bankruptcy does not discharge a debt incurred
as the result of "fraud or defalcation while acting in
a fiduciary capacity, embezzlement, or larceny." The
third was a claim pursuant to 11 U.S.C. § 523(a)(6),
which provides that bankruptcy does not discharge a
debt incurred as the result of "willful and malicious
injury by the debtor to another entity or to the
property of another entity." Lastly, the fourth claim
invoked 11 U.S.C. § 523(a)(2)(A), which provides that
bankruptcy does not discharge a debt incurred when
the "money, property, services, or an extension,
renewal, or refinancing of credit" is obtained by "false
pretenses, a false representation, or actual fraud,
other than a statement respecting the debtor's or an
insider's financial condition."
The consolidated adversarial proceedings went
to trial before the bankruptcy court in March 2017.
In March 2018, the bankruptcy court issued an
Opinion and Order finding Claud Anderson's debt to
Harbor Bank nondischargeable under § 523(a)(6) and
entered judgment for Harbor Bank on that claim. See
D-15

Order, State of Maryland v. Anderson, No. 15-00685
(Dkt. No. 189). The bankruptcy court entered
judgment in favor of Anderson on Harbor Bank's
three other causes of action.
In assessing Harbor Bank's § 523(a)(6) claim,
the bankruptcy court first defined the statute's
"willful and malicious injury" requirement. The
bankruptcy court noted that under Kawaauhau v.
Geiger, 523 U.S. 57 (2014), nondischargeability under
§ 523(a)(6) requires "a deliberate or intentional
injury, not merely a deliberate or intentional act that
leads to injury." Id at 61. Accordingly, it concluded
that an injury is willful and malicious for purposes of
§ 523(a)(6) when "the debtor acted with 'substantial
certainty that harm would result or a subjective
motive to cause harm.'" In re Parks, 91 F. App'x 817,
819 (4th Cir. 2003) (unpublished) (quoting In re
Miller, 156 F.3d 598, 604 (5th Cir. 1998)).
Because the Geiger framework sounds III tort,
the bankruptcy court examined its applicability when
the alleged injury was a breach of contract and
concluded that the breach must be accompanied by
"some conduct that is legally wrong or tort[i]ous" in
order to support a § 523(a)(6) claim. Bankr. Mem. Gp.
at 37 (citing Webb v. Isaacson (In re Isaacson), 478
B.R. 763, 781 (Bankr. E.D. Va. 2012)). The
bankruptcy court noted that other courts have found
that deliberately and intentionally refusing to turn
over funds that the debtor had specifically agreed to
earmark for payment of a particular debt amounted
to independently wrong or tortious conduct" so as to
satisfy § 523(a)(6)'s "willful and malicious injury"

D-16

requirement. Id. at 38. See, e.g., Alessi v. Alessi (In re
Alessi), 405 B.R. 65, 68 (Bankr. W.D.N.Y. 2009).
With this legal framework, the bankruptcy
court turned to the facts of the case. The bankruptcy
court found first that Harbor Bank had been injured
by the Anderson Transfer because it, not Joann
Anderson, had a priority security interest in the
Selective Suit proceeds. In so concluding, the
bankruptcy court rejected Claud Anderson's claim
that Joann Anderson's control of the United Bank
account made her a first priority secured creditor for
purposes of the Selective Suit settlement funds.
Bankr. Mem. Gp. at 39. The bankruptcy court found
that where Joann Anderson had no deposit account
control agreement with Waterland as to the United
Bank account, her access to that account was only in
her capacity as Waterland's Secretary and Treasurer,
not as a secured creditor. It also ruled that Joann
Anderson, in her capacity as a secured creditor, had
no claim to priority by virtue of the Anderson
Subordination Agreement, which subordinated all of
her interests in Waterland to MSBDF A.
Instead, the bankruptcy court found that
Harbor Bank had a first-priority claim to the
Selective Suit insurance proceeds by virtue of the
Insurance Assignment, which expressly assigned
Waterland's interest in the Selective Suit proceeds to
MSBDFA, and the Amended Intercreditor
Agreement, which then gave Harbor Bank a
first-priority interest in those insurance proceeds.
The bankruptcy court further concluded that the
insurance proceeds had not been converted into
another form of capital, and thereby no longer
D-17

governed by the Insurance Assignment and Amended
Intercreditor Agreement, simply by being deposited
in the United Bank account. The bankruptcy court
thus found that Harbor Bank, as the first-priority
interest holder in the Selective Suit proceeds, had
been injured by the Anderson Transfer.
As for whether the injury was willful and
malicious, the bankruptcy court found that the
preponderance of the evidence established that Claud
Anderson's intent was to put the Selective Suit
proceeds "outside of Harbor Bank's reach in order to
give Joann Anderson access to the funds." Bankr.
Mem. Op. at 40. In reaching this conclusion, the
bankruptcy court relied on Claud Anderson's
testimony that in signing the Settlement
Memorandum, he instructed his attorneys to transfer
the settlement proceeds to Waterland's United Bank
account, not Harbor Bank, because his goal was to
get the money to Waterland, and he considered
Harbor Bank's right to the money to be secondary.
The bankruptcy court found that Claud Anderson
knew that Joann Anderson claimed a superior
interest to the funds in that account based on the
advice of restructuring experts and rejected the
testimony that Joann Anderson made the Anderson
Transfer without consulting Claud Anderson,
because the court did "not believe that the Defendant
and Joann Anderson, who have been married for
more than 50 years and worked together at
Waterland at the time, did not discuss Joann
Anderson's intentions to take the Insurance
Proceeds." Id. The bankruptcy court further noted
that at the very latest, Claud Anderson learned from
D-18

Joann Anderson of the Anderson Transfer soon after
she had effected it, and yet he took no action to undo
the transfer. Instead, he actively concealed it.
Although Claud Anderson communicated with
Stanley Arnold of Harbor Bank both before and after
the Anderson Transfer, at neither point did he tell
Arnold that the Selective Suit had settled. The
bankruptcy court rejected as "stretch[ing] credulity"
Claud Anderson's explanation of his silence as
required by settlement confidentiality requirements.
Id. at 41. Based on these factual findings, the
bankruptcy court concluded that Claud Anderson
willfully and maliciously caused injury to Harbor
Bank by depriving it of the insurance proceeds.
Accordingly, the bankruptcy court concluded
that Claud Anderson's debt to Harbor Bank as
guarantor for Waterland was not dischargeable in
bankruptcy because it was the result of "willful and
malicious injury by the debtor to another entity or to
the property of another entity." 11 U.S.C. § 523(a)(6).
Anderson has now appealed that determination to
this Court.
DISCUSSION
On appeal, Anderson argues that the
bankruptcy court erred in finding that he willfully
and maliciously caused injury to Harbor Bank
because once the Selective Suit proceeds were
deposited into the United Bank account, Harbor
Bank lost any secured interest in them, and Joann
Anderson became the first-priority lien holder over
those proceeds due to her control over the United
D-19

Bank account. Anderson also argues that the
bankruptcy court erred in determining that any
injury to Harbor Bank was willful and malicious, and
that Harbor Bank's claims are barred by the doctrine
of resjudicata.
I. Standard of Review
The Court has jurisdiction over the Appeal
because the bankruptcy court's order resolving
Anderson's Motion to Dismiss and finding the
Waterland debt to Harbor Bank nondischargeable is
a final order. 28 U.S.C. § 158(a)(1) (2012); see Gold v.
Guberman (In re Computer Learning Ctrs., Inc.), 407
F.3d 656, 660 (4th Cir. 2005) (stating that "orders in
bankruptcy cases may be immediately appealed if
they finally dispose of discrete disputes within the
larger case") (quoting In re Saco Local Dev. Corp.,
711 F.2d 441, 444 (1st Cir. 1983)). A district court
reviews the bankruptcy court's legal conclusions de
novo and its findings of fact for clear error. Canal
Corp. v. Finnman (In re Johnson), 960 F.2d 396, 399
(4th Cir. 1992). The district court reverses a
bankruptcy court order only when it "has a definite
- and firm conviction that the court below committed
a clear error of judgment in the conclusion it reached
upon a weighing of the relevant factors." Westberry v.
Gislaved Gummi AB, 178 F.3d 257, 261 (4th Cir.
1999) (quoting Wilson v. Volkswagen ofAmerica, Inc.,
561 F.2d 494,506 (4th Cir. 1977)); Yankah v. Yankah
(In re Yankah), 514 B.R. 159, 164 (E.D. Va. 2014).

D-20

II. Injury
Anderson's core assertion on this appeal is that
"whatever character the insurance proceeds had
prior" to being deposited into the United Bank
account, once there, "any lien held by Harbor or
another creditor became subordinate" to the lien held
by Joann Anderson. Appellant Brief at 19, ECF No.
15. Anderson is thus primarily challenging the
bankruptcy court's conclusion that Harbor Bank was
injured by the Anderson Transfer, based on his
contention that Harbor Bank had no entitlement to
the proceeds of the Selective Suit. Anderson's
authority for this proposition is UCC § 9-104, codified
in Maryland, which states:
(a) A secured party has control of a deposit
account if:
(1) The secured party is the bank with
which the deposit account is
maintained;
(2) The debtor, secured party, and bank
have agreed in an authenticated record
that the bank will comply with
instructions originated by the secured
party directing disposition of the funds
in the deposit account without further
consent by the debtor; or
(3) The secured party becomes the
bank's customer with respect to the
deposit account.
(b) A secured party that has satisfied
subsection (a) has control, even ifthe debtor

D-21

retains the right to direct the disposition of
funds from the deposit account.
Md. Code Ann., Com. Law § 9-104 (West 2013). Here,
the bankruptcy court found that Joann Anderson did
not have "control" ofthe United Bank deposit account
within the meaning of section 9-104 based on the
absence of any account control agreement between
Joann Anderson, Waterland, and United Bank. Nor
was the bankruptcy court persuaded that Joann
Anderson's access to the United Bank account as an
authorized signatory amounted to "control" of that
account within the meaning of section 9-104,
rejecting such a conclusion as a "red herring." Bankr.
Mem Op. at 39. To the extent that the bankruptcy
court's conclusion rests on certain findings of fact,
the Court sees no clear error in such findings.
Considering that factual universe and
conducting a de novo legal review, the Court reaches
the same conclusion as the bankruptcy court.
Anderson identifies no specific provision of section
9-104 that he believes to apply to the facts here. The
only one that seems possibly relevant is section
9-104(a)(3), which states that a secured party has
control ofa deposit account if the party becomes the
bank's customer with respect to that account.
However, the record establishes only that Joann
Anderson was an authorized signatory on the United
Bank account, and Anderson provides no authority
for the claim that an authorized signatory is
equivalent to a customer for purposes of this
provision. Rather, the commentary to section 9-104
compels the contrary conclusion, as it states that,
pursuant to section 8.12 of the Restatement of
D-22

Agency, determining whether a particular person has
control requires application of traditional agency
principles. Section 8.12 of the Restatement of
Agency, in turn, emphasizes that an agent has a duty
"not to deal with the principal's property so that it
appears to be the agent's property," and that an
agent's control of the property of the principal is
tantamount to control by the principal. Restatement
(Third) of Agency § 8.12 (Am. Law. Inst. 2006). Thus,
when Joann Anderson acted with regard to the
United Bank account, she did so solely in her
capacity as an authorized signatory and employee
ofWaterland, not in her role as one ofWaterland's
secured creditors.
Anderson's citation to In re WEB2B Payment
Solutions, Inc., 488 B.R. 387 (8th Cir. RA.P. 2013),
does not provide a basis to alter this conclusion. That
case establishes only that when a party transfers a
debtor's funds to another entity without requesting
adequate protection of its possessory lien, it
relinquishes that lien. In re WEB2B Payment
Solutions, 488 RR. at 394. Here, Harbor Bank never
had actual possession of the Selective Suit proceeds,
as it was Waterland's attorneys, at the direction of
Claud Anderson, who transferred the funds into the
United Bank account. The In re WEB2B Payment
Solutions court's citation in a footnote to section
9-104 does not advance Anderson's claim, as it refers
only to the wholly inapplicable subsection 9-104(a)(1).
In re WEB2B Payment Solutions, 488 RR. at 391 n.8.
In re WEB2B Payment Solutions also provides no
basis to support Anderson's claim that because the
Selective Suit proceeds were transferred into the
D-23

United Bank account by Waterland's attorneys, not
by Claud or Joann Anderson, the funds were thereby
stripped of any lien held by any creditor.
The Court therefore finds no basis to conclude
that Joann Anderson, in her capacity as a secured
creditor, had control of the United Bank account
within the meaning of section 9-104 by virtue of her
access to that account as an authorized signatory for
Waterland, and it affirms the bankruptcy court's
factual findings and legal conclusions on this point.
Anderson also argues that, pursuant to section
9-109(d)(8) of the UCC, as codified in the Commercial
Law Article of the Maryland Code, Harbor Bank's
interest in the Selective Suit proceeds was an
unsecured one that could not trump Joann
Anderson's interest. That provision states that "[a]
transfer of an interest in or an assignment of a claim
under a policy of insurance" is exempt from the
provisions ofthe UCC, but further provides that UCC
provisions governing the creation of secured party
rights and the priority of security interests do apply
to "proceeds and priorities in proceeds." Md. Code
Ann. Com. Law § 9-109(d)(8).
The cases interpreting the scope of section 9:1
09(d)(8) have tracked this statutory distinction
between interests in insurance claims and interests
in proceeds. In In re Montreal, Main & Atlantic
Railway, Ltd., 799 F.3d I (1st Cir. 2015), cited by
Anderson, the United States Court of Appeals for the
First Circuit specifically stated that "[b]y its terms,
the [section 9-109(d)(8)] exclusion applies to the use
of an insurance policy as original collateral or to any
assignment of a claim under an insurance policy,"
D-24

including a "transfer of rights under an insurance
policy," but made no reference to a transfer of
insurance proceeds. Id. at 6 (emphasis added). At
least one bankruptcy court has reached a similar
conclusion. In In re Holtslander, 507 B.R. 779, 783
(Bankr. N.D.N.Y. 2014), the court explained, in the
context of analyzing section 9-109(d)(8), that "[a]
perfected security interest in the collateral will give
the secured party a perfected security interest in the
proceeds upon damage to or destruction of the
collateral. Under Article 9, the secured party
therefore does not have to be a named payee in order
to have its security interest in the proceeds
recognized." Id. at 783. The court thus found that a
creditor with a perfected secured interest in the
debtor's vehicle was entitled to the insurance
proceeds paid out upon damage to or destruction of
that vehicle. Id.
Here, the original collateral for Harbor Bank's
security interest in the insurance proceeds obtained
through the Selective Suit was not Waterland's
insurance policy. It was Waterland's real property, in
which Harbor Bank had an undisputed, properly
secured, first-priority interest. See Amended Harbor
Bank Deed at 3-6 (as to secured interest); Amended
Intercreditor Agreement at 5 (as to priority). In
apparent recognition of Harbor Bank's priority
interest in Waterland's real property, the Amended
Intercreditor Agreement granted Harbor Bank first
priority over the Selective insurance proceeds. See
Amended Intercreditor Agreement at 5 (defining
"Insurance Proceeds" to include proceeds under
Selective claim 21274371); id. at 9 (granting first
D-25

priority over the Insurance Proceeds to Harbor
Bank). By defining the interest as rights to
"insurance proceeds paid," id. at 5,, the Agreement
squarely placed that interest within the ambit of § 9109(d)(8)'s "proceeds and priorities in proceeds,"
which can be secured and prioritized under the UCC.
Md. Code Ann. Com. Law § 9-109(d)(8). Because
Harbor Bank's original collateral was not any
insurance policy or claim, but rather Waterland's
property, this case precisely tracks In re Holtslander,
the reasoning of which the Court will apply here.
This allegation of error is rejected.
Nor is the Court persuaded by Anderson's
other arguments for error on the issue of injury.
Anderson asserts that Harbor had no claim to the
Selective Suit proceeds because the Selective policy
did not list Harbor Bank as a loss payee. Harbor
Bank's claim, however, is based not on its status as
express beneficiary under an insurance policy, but on
its status as the holder of a firstpriority secured
interest in Waterland's real property and insurance
proceeds. See In re Holtslander, 507 RR. at 783.
Anderson also argues that because Waterland
was not in default on the Harbor Bank loan at the
time the proceeds were transferred to the United
Bank account, "the insurance proceeds were not trust
property" as defined in the Amended Harbor Bank
Deed. Appellant Brief at 15. Beyond the fact that a
Harbor Bank representative testified that Waterland
was actually in default, Anderson's argument is
flawed because he appears to confuse the concept of
trust property with Harbor Bank's right to foreclose
on that property, a right that would be triggered by
D-26

Waterland' s default. Under the Amended Harbor
Bank Deed, however, Trust Property is expressly
defined to include insurance proceeds for policies
covering the Property. Amended Harbor Bank Deed
at 6. Nor is the definition of Trust Property in any
way limited or made contingent on a declaration of
default. See id. at 4-6 (defining Trust Property). The
Court therefore rejects this argument and concludes
that the bankruptcy court correctly determined that
Harbor Bank sustained an injury from the transfer of
the Selective Suit proceeds to the United Bank
account.
III. Willful and Malicious
Anderson also asserts that the bankruptcy
court erred in finding that the injury he caused was
"willful and malicious" under 11 U.S.C. § 523(a)(6).
To the extent that Anderson asserts that his actions
were neither willful nor malicious because Harbor
Bank had no entitlement to the insurance proceeds,
the Court rejects that argument because, as
discussed above, Harbor Bank was entitled to the
insurance proceeds.
The Court is further satisfied that the
bankruptcy court correctly found that the injury to
Harbor Bank was "willful and malicious." In reaching
that conclusion, the bankruptcy court found, as a
matter of fact, that Claud Anderson was aware that
the Selective Suit proceeds were being transferred to
the United Bank account, not to Harbor Bank; that
it was highly unlikely that he was unaware at the
time of the transfer that his wife, Joann Anderson,
D-27

was planning to effect the Anderson Transfer; and
that after Joann Anderson effected that transfer,
Claud Anderson repeatedly failed to inform Harbor
Bank either of the Selective settlement or of the
existence of the settlement proceeds. On this last
point, the bankruptcy court rejected Claud
Anderson's proffered explanation of his silence as
something he believed to be required by
confidentiality provisions referenced by a United
States Magistrate Judge who did not actually conduct
the mediation, which was conducted by a private
mediator. This Court finds no clear error in these
factual determinations.
Based on these findings of fact, the Court
concludes, upon its own review, that the willful and
malicious requirement of § 523(a)(6) was satisfied by
a preponderance of the evidence. Grogan v. Garner,
498 U.S. 279, 286-87 (1991) (holding that the
standard of proof for dischargeability exceptions
under § 523(a) is preponderance of the evidence). A
willful and malicious injury requires "a deliberate or
intentional injury, not merely a deliberate or
intentional act that leads to injury." Kawaauhau, 523
U.S. at 61. To meet this standard, the debtor must
have acted "with substantial certainty that harm
would result" or with "a subjective motive to cause
harm." In re Parks, 91 F. App'x at 819 (quoting In re
Miller, 156 F.3d at 603). Where Claud Anderson
directed that the Selective Suit proceeds be
transferred into the United Bank account,
understood that Joann Anderson would remove those
funds for herself, and deliberately kept information
about the Selective Suit settlement away from
D-28

Harbor Bank following the transfer, the facts support
the conclusion that he acted with substantial
certainty that his efforts would leave Harbor Bank
with none of those settlement proceeds. The Court
therefore concludes that Anderson's effort to deprive
a first-priority creditor of its rightful monies was
independently wrong and tortious, such that §
523(a)(6)'s "willful and malicious injury" requirement
has been satisfied. Webb v. Isaacson (In re Isaacson),
478 RR. 763, 781 (Bankr. E.D. Va. 2012); Alessi, 405
RR. at 68.
IV. Res Judicata
Finally, after including a series of other
sections in his brief that are completely irrelevant to
this case and acknowledging that they were
"extracted from filings in Dorchester County Court,"
Appellant Brief at 11 n.l, Anderson argues that many
of Harbor Bank's claims are barred by the doctrine of
res judicata as a result of that prior case. The case in
the Circuit Court for Dorchester County, Maryland,
Harbor Bank v. Kramon & Graham, No. C-15-22885
(Md. Cir. Ct. Dorchester Cty. 2015), was a state-law
action filed by Harbor Bank against Waterland and
Kramon & Graham, Waterland's attorneys in the
Selective Suit, alleging claims for conversion,
conspiracy, and tortious interference with contractual
relations. The court granted Kramon & Graham's
Motion to Dismiss in that case, and the Court of
Special Appeals in Maryland affirmed that ruling.
Under the doctrine of res judicata, a final
judgment on the merits in an earlier decision
D-29

precludes the parties from relitigating claims that
were raised or could have been raised during that
action. Pueschel u. United States, 369 F.3d 345,354
(4th Cir. 2004). This doctrine applies when there is:
(1) a final judgment on the merits in a prior lawsuit;
(2) an identity of cause of action in both the earlier
and later suits; and (3) an identity of parties or their
privies in the two suits. Id. at 354-55. Neither the
second nor third requirement is satisfied here. As to
the second requirement, because federal district
courts have exclusive jurisdiction over bankruptcy
cases, see 28 U.S.C. § 1334(a), Harbor Bank's
bankruptcy claims could not have been raised in the
Dorchester County action. As to the third
requirement, the final judgment referenced by
Anderson resolves only Harbor Bank's claims as to
Kramon & Graham, which is not a party to the
bankruptcy action, so there is no identity of parties.
The Court rejects res judicata as a basis for error.
CONCLUSION
For the foregoing reasons, the bankruptcy
court's Order that Anderson's debt to Harbor Bank is
nondischargeable under 11 U.S.C. § 523(a)(6) is
AFFIRMED. The Appeal is DISMISSED. A separate
Order shall issue.
Date: March 15, 2019
s/Theodore D. Chuang
Theodore D. Chuang
United States District Judge

D-30

